wAIVE

F!Supreme Court, U.S.
FILED

OCT 0 8 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-384

Harmon L. Taylor

City of Sherman, Texas, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Whitney Brewster, Director for Texas DMV

0 I am a member of the Bar of the Supreme Court of the United States.
•
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

Demetri Anastasiadis

October 8, 2019

(Type or print) Name

Demetri Anastasiadis
0 Mr.

Firm

Office of the Texas Attorney General

Address

P.O. Box 12548

City State
Phone

E Ms. 0 Mrs. E Miss

Austin, Texas

(512) 463-2080

Zip
Email

78711

demetri.anastasiadis@oag.texas.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Harmon L. Taylor

RECEIVED
OCT 1 6 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

KEN PAXTON
ATTORNEY GENERAL OF TEXAS

October 8, 2019
Regular Mail
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: No. 19-384; Harmon L. Taylor v. City of Sherman, Texas, et al.,
Dear Clerk:
Enclosed please find the following document pertaining to the above styled
appeal:
Waiver form -Whitney Brewster
Should a response be requested, the response will be filed by a bar member.
Thank you for your attention to this matter.
Sincerely,
/ s / Demetri Anastasiadi.
DEMETRI ANASTASIADIS
Assistant Attorney General
Law Enforcement Defense Division
(512) 463-2080 / Fax (512) 370-9374
DCA/dmw
Enclosure

Post Office Box 12548, Austin. Texas 78711-2548 • (512) 463-2100 • www.texasattorneyg.eneral.gov

